                        NATIONAL SCIENCE FOUNDATIC-.
                          WASHINGTON, D.C. 20550




        O f f ice of
    Inspector General



    MEMORANDUM                                                                               \

                                                                                             It
                                                                  .. . .~   ~   ...-..   ~




        THRU :                                  nsel to the IG

     SUBJECT:    Closeout Memorand
           TO:   Case No. I92060015
    In June 1992, we received anonymous allegations involving the




    Department Professor,
                     and
    By reviewing NSF funding
    determined that NSF might have
              We also found t h a t w a d received SBIR awards from NSF
              related to             During a technical review of the
    proposals submitted by                the               department,
'   we concluded that, while tki proposals deal wi         ne parallel
    programming language, each proposal deals with a different aspect
    of the application of-to          a specific programming language.
           Therefore, there was no duplication of funding by NSF a n d . We
           have determined that Dr.                the
           Department may have viol-             policy -sealing with outsiibl
           employment.
             During the course of our review, we determined that there is a very
              close relationship b e t w e e n a n d the                   department.
             However, we have been unable to i d e n t i f v w o f NSF crrant
                        At our request,            conducted & irkentory review o? the
                                     Department
                                          for all
              copies of all licensing agreements bet
              concluded that the specific allegations,
--   -   -- - transfer--of-,-NSF--gr-a-nt---maleF- to
             w o r k s t a t i o n s . a t probably related to the exchange by
              computer equipment- for softwarwelicenses.
           A=     panel considered potential conflicts of interest between-
           and the v e p a r t m e n t in relation to an exchange of
           software icenses for                           .
                                                          The panel determined
           that a l p o l i c y was hec
                                     essary tone        the careful negotiation
           and in ependent review of complex transactions. However, the panel
           drepma~.,conclusions regarding the propriety ,of the transaction
           because it was unable to clearlylSdlet.ermine the value of the items
           exchanged.
                                                                                     '
           I see no basis for further review.       This case is hereby close3
